HHS/OIG, Audit -"Review of Nursing Facility Staffing Requirements at Blue Ridge Care and Rehabilitation Center,"(A-03-04-00202)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Nursing Facility Staffing Requirements at Blue Ridge Care and Rehabilitation Center," (A-03-04-00202)
January 28, 2005
Complete
Text of Report is available in PDF format (311 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Blue Ridge Care and Rehabilitation Center was in compliance with
Federal and State staffing laws and regulations for nursing homes.  Based on our review of 52 direct care employees,
Blue Ridge did not comply with the Federal and State staffing laws and regulations that we reviewed.  Blue Ridge did
not schedule direct care employees to ensure there was a registered nurse on duty at least 8 consecutive hours for 5 of
the days reviewed and sufficient staff to provide 2.25 hours of direct care per resident per day for 3 of the days reviewed.  Also,
Blue Ridge did not maintain personnel records with evidence of a current license or certification for seven direct care
employees.  We recommended that Blue Ridge review and strengthen its internal controls to assure that it schedules
direct care employees to ensure that there is a registered nurse on duty at least 8 consecutive hours a day, 7 days a week,
and enough nursing staff on duty to provide 2.25 hours of direct care per resident per day.  We also recommended that
Blue Ridge maintain evidence of current license or certification status in each direct care employees personnel record.  Blue
Ridge concurred with our findings.